           Office of Inspector General




June 28, 2004

WILLIAM C. RUCKER
MANAGER, OKLAHOMA DISTRICT

E. WILLIAM WALDEMAYER, JR.
MANAGER, ARKANSAS DISTRICT

SUBJECT: 	 Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses in
           the Arkansas and Oklahoma Performance Clusters (Southwest Area)
           (Report Number HM-AR-04-007)

This report presents the results of our audit of the Arkansas and Oklahoma
Performance Clusters’ (Southwest Area) efforts to prevent accidents, injuries, and
illnesses (Project Number 03YG011LH005). Our overall objective was to determine
whether the performance clusters were reducing the number of accidents, injuries,
and illnesses through prevention methods. This report is the fifth in a series of
7 reports we will issue on accident prevention initiatives in 6 areas and
12 performance clusters. The seventh report will address issues with nationwide
impact and will provide the results of our best practice review of safety issues.

The Arkansas and Oklahoma Performance Clusters had implemented prevention
initiatives that have the potential to become best practices in reducing accidents,
injuries, and illnesses. In addition, the prevention initiatives reduced the number of
accidents, injuries, and illnesses in both performance clusters, and the initiatives
were implemented in a timely manner.

Although both performance clusters were accumulating and analyzing accident,
injury, and illness data for prevention initiatives, the Human Resources Information
Systems and the Risk Management Reporting System are antiquated and will be
replaced. Finally, in all six facilities we visited in the Arkansas and Oklahoma
Performance Clusters, the reporting processes facilitated accurate reporting of
accidents, injuries, and illnesses.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Management stated the report accurately reflects the attention that both District
Managers give to protecting the Postal Service’s most valuable assets from job-
related injuries. Management also stated that both performance clusters use
CustomerPerfect!, a process that closely aligns with the organization’s values, to
determine the causes of accidents and the gaps in processes. In addition,
management stated that both clusters are committed to accurate and timely accident
reporting.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, at (214) 775-9114 or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: 	 Suzanne F. Medvidovich
      John A. Rapp
      DeWitt O. Harris
      George L. Lopez
      Samuel M. Pulcrano
      Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                                     HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                TABLE OF CONTENTS

Executive Summary                                                               i

Part I 


Introduction 
                                                                  1

   Background                                                                  1

   Objectives, Scope, and Methodology                                          2

   Prior Audit Coverage                                                        3


Part II 


Audit Results                                                                   4


   Accident Prevention Initiatives                                             4


   Effectiveness and Timeliness of Prevention Initiatives                       5

     Management’s Comments                                                      6


   Accident Reporting Systems                                                   7


   Reporting Processes                                                         8

    Management’s Comments                                                      9


Appendix A. Abbreviations                                                      10

Appendix B. Scope and Methodology                                              11 


Appendix C. Statistical Sampling and Projections for Review of Accident 

            Reporting Processes in Arkansas Performance Cluster                13 


Appendix D. Statistical Sampling and Projections for Review of Accident 

            Reporting Processes in Oklahoma Performance Cluster                16 


Appendix E. Management’s Comments                                              19 

Efforts to Prevent Accidents, Injuries,                                            HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                       EXECUTIVE SUMMARY
 Introduction 	                This report presents the results of our self-initiated audit
                               to determine whether the Arkansas and Oklahoma
                               Performance Clusters located in the Southwest Area were
                               reducing the number of accidents, injuries, and illnesses
                               through prevention initiatives.

 Results in Brief              The Arkansas and Oklahoma Performance Clusters have
                               implemented prevention initiatives that could become best
                               practices in reducing accidents, injuries, and illnesses. In
                               addition, the prevention initiatives reduced the number of
                               accidents, injuries, and illnesses in both performance
                               clusters, and the initiatives were implemented in a timely
                               manner.

                               Although both performance clusters were accumulating and
                               analyzing accident, injury, and illness data for prevention
                               initiatives, the Human Resources Information Systems and
                               the Risk Management Reporting System are antiquated and
                               will be replaced.

                               Postal Service Headquarters officials told us they were
                               addressing this issue at the headquarters level. We will
                               issue a summary report on the audit results for the six areas
                               visited. In that report, we may make a recommendation to
                               the Senior Vice President, Human Resources, regarding the
                               data systems.

                               Finally, in all six facilities we visited in the Arkansas and
                               Oklahoma Performance Clusters, the reporting processes
                               used within the various functional areas facilitated the
                               accurate reporting of accidents, injuries, and illnesses.

 Summary of                    Management stated the report accurately reflects the
 Management’s                  attention that both District Managers give to protecting the
 Comments                      Postal Service’s most valuable assets from job-related
                               injuries. Management also stated that both performance
                               clusters use CustomerPerfect!, a process that closely aligns
                               with the organizational core values, to determine the causes
                               of accidents and the gaps in processes. In addition,
                               management stated that both clusters are committed to
                               accurate and timely accident reporting. Management’s
                               comments, in their entirety, are included in Appendix E of
                               this report.


                                               i
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                           INTRODUCTION
    Background                         With responsibility for more than 38,000 facilities, major
                                       transportation networks, and universal delivery, the Postal
                                       Service faces significant challenges in the areas of health
                                       and safety. These include making the health and safety
                                       of Postal Service employees a priority, managing the
                                       associated costs and lost productivity in operations, and
                                       responding when accidents and injuries have an
                                       unfavorable impact on the workplace. In addition, the
                                       Postal Service must address citations and monetary
                                       penalties for noncompliance with Occupational Safety and
                                       Health Administration (OSHA) standards.

                                       In its April 2002 Transformation Plan, the Postal Service
                                       stated that to meet its challenges and prepare for
                                       transformation, it will implement a number of strategies to
                                       “push business effectiveness and operational efficiency.”
                                       One of the strategies outlined was to reduce its workers’
                                       compensation costs. According to the Office of Workers’
                                       Compensation Programs’ (OWCP) chargeback1 reports, the
                                       Postal Service workers’ compensation costs have increased
                                       from $538 million to $822 million between chargeback
                                       years 1997 and 2003.2

                                       The following table is a comparison of Postal Service-wide
                                       accidents3 and OSHA injuries and illnesses4 for fiscal years
                                       (FYs) 2002 through 2003, which shows decreases in
                                       four categories. In addition, total expenses in FY 2003
                                       decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents, including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses, such as, but not
limited to skin diseases, respiratory disorders, or poisoning.

                                                         1
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)


                                      Table 1. 	Comparison of Postal Service-wide Accidents and OSHA Injuries
                                                and Illnesses, FYs 2002 through 2003

                                              Category               FY 2002                FY 2003
                                       Motor Vehicle                           23,404                 23,100
                                       Accidents
                                       Non-Motor Vehicle                       99,195                 93,251
                                       Accidents
                                       OSHA Injuries                           51,630                 46,317
                                       OSHA Illnesses                           6,972                  5,550
                                       Total Accident, Injury,        $1,652,449,865        $1,620,024,027
                                       and Illness Expenses

                                      Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                                      Some Postal Service Headquarters officials did not know
                                      specifically what was responsible for the reduction in
                                      accidents. They believed, however, it was the result of
                                      accident prevention initiatives.

                                      To determine why the number of accidents, injuries, and
                                      illnesses declined, we conducted a survey of the accident
                                      prevention programs in the Postal Service’s Western
                                      New York and Baltimore Performance Clusters, located in
                                      the Northeast and Capital Metro Areas, respectively. Our
                                      results showed that accident prevention initiatives in each
                                      performance cluster were different and yielded contrasting
                                      results. We conducted this audit to determine whether
                                      similar situations existed in the Arkansas and Oklahoma
                                      Performance Clusters. We did not audit the performance
                                      clusters’ overall safety programs. Our focus was on
                                      accident prevention initiatives at the locations we visited.

    Objectives, Scope, and            Our overall objective was to determine whether the
    Methodology                       Arkansas and Oklahoma Performance Clusters were
                                      reducing the number of accidents, injuries, and illnesses
                                      through prevention initiatives. Our four subobjectives were
                                      to determine whether:

                                         •	      The number of accidents and injuries were declining
                                                 as a result of corrections to unsafe working
                                                 conditions and practices.5




5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.

                                                          2
Efforts to Prevent Accidents, Injuries,                                               HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)




                                    •	    Corrective actions and/or prevention initiatives were
                                          made in a timely manner.

                                    •	    Data were being accumulated and analyzed for
                                          prevention initiatives.

                                    •     Processes facilitated accurate reporting.

                                 We discuss our scope and methodology in Appendix B.

 Prior Audit Coverage 	          In the Arkansas and Oklahoma Performance Clusters, we
                                 did not identify any prior audits or reviews related to the
                                 objectives of this audit.




                                                3
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                       AUDIT RESULTS
                              The Arkansas and Oklahoma Performance Clusters have
                              implemented accident prevention initiatives. We determined
                              that the prevention initiatives were reducing the number of
                              accidents, injuries, and illnesses in both performance
                              clusters, and the initiatives were implemented in a timely
                              manner.

                              Although the performance clusters were accumulating and
                              analyzing accident, injury, and illness data in two different
                              automated systems; the systems are antiquated and will be
                              replaced. Further, the reporting processes used within the
                              various functional areas facilitated accurate reporting of
                              accidents, injuries, and illnesses.

 Accident Prevention 	        The Arkansas and Oklahoma Performance Clusters’
 Initiatives	                 prevention initiatives have the potential to become best
                              practices in reducing accidents, injuries, and illnesses.
                              These initiatives could also help other performance clusters
                              to enhance their safety programs. For example, the
                              Arkansas Performance Cluster:

                                  •	    Installed strobe lights and orange warning sticks on
                                        vehicles to reduce motor vehicle accidents. The
                                        strobe lights replaced the emergency flashers on
                                        long-life vehicles to bring attention to the slow-
                                        moving or parked vehicles. Strobe light bars were
                                        provided to rural carriers to attach to their vehicles
                                        for the same effect. The orange warning sticks are
                                        mounted on the right front bumper and serve as a
                                        reference point with regard to the distance between
                                        the vehicle and fixed objects.

                                  •	    Developed a Safety Captain Handbook that
                                        contains guidelines and instructions for safety
                                        captains. As a result, safety captains have a
                                        clearer understanding of their roles and
                                        responsibilities.

                              The Oklahoma Performance Cluster implemented the
                              following prevention initiatives:

                                  •	    Issued “Shur Steppers” to prevent slips, trips, and
                                        falls due to icy conditions. “Shur Steppers” are
                                        rubber shoe covers with cleats and are worn by

                                               4
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                           letter carriers. Safety personnel said that in
                                           FY 2003, slips, trips, and falls due to icy conditions
                                           did not happen to personnel who were wearing
                                           “Shur Steppers.”

                                     •	    Developed a driver’s training course for new
                                           employees and drivers who had previous accidents.
                                           This course is mobile and was given in many
                                           locations throughout the performance cluster. The
                                           course consisted of actual driving conditions and
                                           hazards.

    Effectiveness and            For FY 2002 through accounting period 8 in FY 2003, we
    Timeliness of                determined the Arkansas and Oklahoma Performance
    Prevention Initiatives       Clusters’ accidents, injuries, and illnesses were reduced as
                                 a result of prevention initiatives, and prevention initiatives
                                 were implemented in a timely manner. For example, as a
                                 result of installing orange warning sticks on long-life
                                 vehicles in 2003, the Arkansas Performance Cluster
                                 experienced a 32 percent reduction in the number of
                                 accidents involving striking fixed objects (from 19 accidents
                                 in 2002 to 13 in 2003). The orange sticks were initially
                                 purchased for the entire performance cluster in 2000, but
                                 their useful life was only three years. The performance
                                 cluster began replacing these in the spring of 2003 and
                                 finished by the end of the year. As of April 2004, there have
                                 been only four accidents involving striking fixed objects.

                                 The Oklahoma Performance Cluster implemented a mobile
                                 driving course in September 2002 that focused on training
                                 employees with two or fewer years driving experience.
                                 Planning for this initiative began in March 2002. The
                                 performance cluster experienced a substantial decrease
                                 in preventable motor vehicle accidents, from 52 in
                                 September 2002 to 34 in September 2003. This represents
                                 a 35 percent reduction.

                                 Overall, the accident numbers and frequency rates6 for
                                 OSHA injuries and illnesses and motor vehicle accidents,
                                 for both performance clusters, decreased for FYs 2002 and
                                 2003. The following table illustrates these decreases.



6
 OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period. These rates provide measurements that make accident data comparable
between large and small facilities.

                                                     5
Efforts to Prevent Accidents, Injuries,                                                             HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)


                                  Table 2. 	OSHA Injury and Illness and Motor Vehicle Accident Numbers
                                            and Frequency Rates in the Arkansas and Oklahoma
                                            Performance Clusters for FYs 2002 and 2003

                                      Performance
                                        Cluster                 Numbers          Average Frequency Rates
                                                           FY 2002    FY 2003      FY 2002      FY 2003
                                    Arkansas
                                     OSHA injury              378          282         6.57            5.11
                                        and illness
                                      Motor Vehicle           221          194         7.24            6.39
                                    Oklahoma
                                     OSHA injury              700          599         9.23            8.23
                                       and illness
                                     Motor Vehicle            265          214         6.89            5.71

                                  Source: Postal Service WebEIS.

                                  Postal Service policy7 stated that safety personnel were
                                  responsible for developing and monitoring a comprehensive
                                  safety and health program and analyzing accident, injury,
                                  and illness data so they could advise management on
                                  corrective actions. Policy8 also required installations to
                                  develop methods to identify program needs for accident
                                  prevention. In addition, policy9 required supervisors to
                                  implement written programs and action plans, monitor
                                  employees’ safety performance, and prevent operational
                                  safety accidents.

    Management’s 	                Management stated the report accurately reflects the level
    Comments 	                    of attention and focus that both District Managers give to
                                  protecting the Postal Service’s most valuable assets from
                                  job-related injuries. They stated that both performance
                                  clusters use CustomerPerfect!,10 a data-driven process that
                                  closely aligns with the organization’s core values, to
                                  determine the causes of accidents and the gaps in
                                  processes. Management stated these activities are
                                  routinely validated through internal and external sources in
                                  the form of program evaluations and leadership business
                                  reviews.




7
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
8
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
9
  Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.
10
   CustomerPerfect! was implemented to help the Postal Service to meet the challenges of an increasingly
competitive environment.

                                                       6
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)




 Accident Reporting              Both the Arkansas and Oklahoma Performance Clusters
 Systems                         were accumulating and analyzing accident, injury, and
                                 illness data in the Human Resources Information Systems
                                 (HRIS) and the Risk Management Reporting System
                                 (RMRS). However, Headquarters personnel told us these
                                 systems are antiquated and will be replaced. Safety
                                 personnel at both performance clusters told us they either
                                 were not experiencing problems with the two systems, or
                                 were able to work around the problems.

                                 For example, based on trend accident analysis, the
                                 Arkansas Safety Office developed a Strategy and Indicator
                                 System to target the performance cluster’s top accident
                                 categories. This system outlines the performance cluster’s
                                 strategies, activities, and steps to accomplish and perform
                                 the strategies.

                                 The Oklahoma Performance Cluster developed an accident
                                 reduction program for their at-risk employees. This program
                                 was based on an analysis of HRIS data showing that
                                 employees who had previous accidents and employees with
                                 fewer than three years’ experience were at risk to have
                                 future accidents. The program’s objective was to take a
                                 proactive approach and bring positive change in employees’
                                 work practices through observation. The performance
                                 cluster plans to observe about 800 employees to make
                                 them aware of the need for safety and focus on preventable
                                 accidents.

                                 Postal Service policy11 requires the safety officer
                                 responsible for facilities where accidents occurred to enter
                                 accident report information into HRIS. Postal Service
                                 policy12 also states that the analysis of accidents and
                                 injuries was vital to effective accident prevention programs,
                                 and requires management to use reports and statistical
                                 analyses to identify and eliminate the principal causes of
                                 accidents and hazardous conditions. Postal Service
                                 policy13 further requires each business area that manages
                                 source data to identify an individual or organization that is
                                 responsible for developing standards and usage rules to
                                 ensure data integrity. The policy also states that the

11
   Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.
12
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
13
   Management Instruction 860-2003-2, Administrative Support, March 6, 2003.

                                                     7
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                   standards and rules must ensure that data was accurate,
                                   available, usable, and consistent with the data location and
                                   other business considerations.

                                   According to the Headquarters Program Manager,
                                   Information Technology, Human Resources Portfolio, the
                                   Postal Service has developed the Injury Compensation
                                   Performance Analysis System, and a component of it will
                                   replace HRIS and RMRS. The Manager also stated that the
                                   system is scheduled for implementation late in calendar
                                   year 2004. We will address this issue in a separate report.14

 Reporting Processes               In all six facilities we visited in the Arkansas and Oklahoma
                                   Performance Clusters, the reporting processes used within
                                   the various functional areas facilitated the accurate
                                   reporting of accidents, injuries, and illnesses.

                                   We used a statistical sample to project the accuracy of the
                                   Arkansas and Oklahoma data in HRIS for FY 2002 and the
                                   first 11 accounting periods of FY 2003. We projected that
                                   almost all of the information on the accident reports was
                                   contained in the system (see Appendices C and D).

                                   We also used a statistical sample to project the
                                   completeness of the Arkansas and Oklahoma Performance
                                   Clusters’ accident report forms.15 We projected that almost
                                   all of the Arkansas and Oklahoma forms, for FY 2002 and
                                   the first 11 accounting periods of FY 2003, were complete
                                   (see Appendices C and D).

                                   Postal Service policy16 requires supervisors to fully
                                   complete the accident report by including preventive action
                                   codes17 and descriptions of accident prevention efforts. The
                                   policy also requires managers to review each accident
                                   report for accuracy and conduct a follow-up assessment to
                                   ensure that action was taken to prevent similar occurrences.
                                   In addition, supervisors and managers are required to sign
                                   the report as proof they have reviewed it. In addition,



14
   We will issue a summary report on the audit results for the six areas visited.
15
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents, regardless of the extent of injury or amount of damage. This
included all first aid injury cases, both reportable and nonreportable.
16
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003.
17
   Preventive action codes described the action taken to eliminate or reduce the accident cause(s) and prevent
similar accidents.

                                                        8
Efforts to Prevent Accidents, Injuries,                                                 HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                   policy18 requires the safety officer to enter the accident
                                   report information into HRIS.

                                   We believe the accident reporting process was accurate
                                   because supervisors and managers had received the safety
                                   training required by the performance clusters and had
                                   communicated the accident reporting process to employees
                                   through safety talks and posters.

 Management’s                      Management stated that they monitor accurate and timely
 Comments                          accident reporting through program evaluations and
                                   leadership business reviews. They stated that both clusters
                                   maintain high levels of commitment in accurate and timely
                                   accident reporting, with a better than 97 percent accuracy
                                   rate and a 95 percent timeliness rate.




18
     Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.

                                                       9
Efforts to Prevent Accidents, Injuries,                        HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                          APPENDIX A. ABBREVIATIONS
e-FOIA         Electronic Freedom of Information Act
FOIA           Freedom of Information Act
FY             Fiscal Year
HRIS           Human Resources Information Systems
OSHA           Occupational Safety and Health Administration
OWCP           Office of Workers’ Compensation Programs
RMRS           Risk Management Reporting System
WebEIS         Web-Enabled Enterprise Information System




                                              10
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                   APPENDIX B. SCOPE AND METHODOLOGY

Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness rates and accident frequency rates from FY 200219 through accounting period 820 in FY 2003.21
The Arkansas average total OSHA injury and illness rates and accident frequency rates were
5.7 percent and 14.5 percent, respectively. The Oklahoma average total OSHA injury and illness
rates and accident frequency rates were 9.0 percent and 18.9 percent, respectively. The average
total accident frequency rate of 18.9 percent in the Oklahoma Performance Cluster meant that out of
every 100 employees, an average of 18.9 had an accident for that period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, and main post office). The Arkansas facilities we
visited were the Little Rock Processing and Distribution Center, the North Little Rock Main Post
Office, and the Little Rock Main Post Office. The Oklahoma facilities we visited were the Oklahoma
City Processing and Distribution Center, the Norman Post Office, and Penn Station.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster and facility visited. In addition, we obtained accident numbers and
accident frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also
obtained from RMRS the accident frequency rates and OSHA injury and illness rates for FY 2002 and
the first eight accounting periods in FY 2003. We reviewed data from both WebEIS and RMRS to
determine whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how unsafe working conditions
and practices should be corrected in a timely manner. We reviewed documentation for corrective
actions and prevention initiatives implemented from FY 2002 through accounting period 11 in
FY 200322 for the Oklahoma Performance Cluster, and FYs 2002 and 2003 for the Arkansas
Performance Cluster.

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and Program
Evaluation Guide data that were accumulated and analyzed for prevention initiatives during FYs 2002
and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries and illnesses, we interviewed human resources, safety and health

19
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
20
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
21
   The first eight accounting periods in FY 2003 began September 7, 2002, and ended April 18, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
22
   The first 11 accounting periods for FY 2003 began September 7, 2002, and ended July 11, 2003.



                                                       11
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention, such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected a statistical sample of accidents,
injuries, and illnesses entered into HRIS for FY 2002 for the first 11 accounting periods in FY 2003 for
the Oklahoma Performance Cluster and FYs 2002 and 2003 for the Arkansas Performance Cluster.
We reviewed a sample of accident report forms for accuracy and completeness, and reviewed a
sample of accidents from HRIS to determine whether the information on the accident report forms
was entered accurately. (See Appendices C and D for a discussion of the sampling and projection
methodologies used.)

This audit was conducted from May 2003 through June 2004 in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data was sufficiently reliable to support the opinions and conclusions in this
report.




                                                   12
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                         APPENDIX C

   STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

       ACCIDENT REPORTING PROCESSES IN ARKANSAS 

                  PERFORMANCE CLUSTER

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified random sample of
accidents listed in the database. The sample design allowed statistical projection of the number of
discrepancies between the database and the accident report forms on file. Existence of the
appropriate supporting forms was also tested using the sample.

Definition of the Audit Universe

The audit universe consisted of 1,650 accidents, according to the HRIS database, for all of FY 2002
and through accounting period 11 in FY 2003. The universe was obtained on-site by requesting
printed HRIS data from the safety manager responsible for the accident and injury prevention
program.

Sample Design and Modifications

Because all files were stored in one location by fiscal year, we stratified the audit universe into
two strata based on the fiscal year. Based on low error rates found at other review sites, we
considered expected error rates of 1.5 percent to 2.0 percent, with a 5 percent risk of overreliance
and a tolerable error rate of 5 percent. The resulting sample sizes ranged from 118 to 166; we
selected 130 records as our desired sample size. We used interval sampling within each stratum to
select individual accident report forms for review. For FY 2002, we used an interval of 13 starting
with the third form, and for FY 2003, we used an interval of 12 starting with the ninth form. The
resulting sample sizes within each stratum are indicated in the following table. (Because of the use of
interval sampling, which involves use of integers, the “planned” and the “actual” numbers of items in
the sample do not add to 130.)

                                                              Sample Size        Sample Size
            Stratum           FY          Population Size      (Planned)           (Actual)
                 1           2002                     872                66                 67
                 2           2003                      778                66                 62
               Total                                  1,650              132               129

To test the completeness and accuracy of the database, we tested ten attributes:

    •	   Did the accident date shown on the accident report form agree with the database?
    •	   Did the data entry date on the accident report form agree with the database?
    •	   Did the pay location on the accident report form agree with the database?
    •	   Did the labor distribution code and Functional Operations Number on the accident report form
         agree with the database?
    •	   Did the activity code on the accident report form agree with the database?
    •	   Did the type of accident code on the accident report form agree with the database?
    •	   Did the accident-result code on the accident report form agree with the database?
    •	   Did the work-location code on the accident report form agree with the database?



                                                 13
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)


    •   Did the nature-of-injury code on the accident report form agree with the database?
    •   Did the injured body part code on the accident report form agree with the database?

For the completeness of the accident report forms, we tested two additional attributes:

    •   Was the preventive action code on the accident report form?
    •   Was the preventive action on the accident report form?

Statistical Projections of the Sample Data

For analysis of the sample results, we considered the interval sampling methodology to be equivalent
to random sampling. As described in Chapter 7 of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990, a systematic sample (also called interval sample or skip-step sample) is
equivalent to a random sample if the order of the items in the population is random relative to (or is
unrelated to) the occurrence of the factor being investigated. We considered that to be the case in
this review.

For projection of the number of errors for each attribute, we observed that the sampled items
contained very low error rates. Because of the extremely low occurrence rates, we were not able to
use the normal approximation to the binomial to calculate occurrence limits. Instead, we analyzed the
upper occurrence limits for each sample using as a basis the cumulative binomial methodology, as
used in past General Accounting Office Financial Audit Manual work to generate the table “Statistical
Sampling Results Evaluation Table for Compliance Tests.” We adapted the upper error limit analysis
concept to the stratified design. We used a 5 percent risk of overreliance (beta risk).

Results

All projections were made to the audit universe of 1,650 accidents, as described in the definition of
the audit universe.

1. Did the accident date shown on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 accident dates in the database (3.01 percent) disagreed with the information on the accident
report form. The point estimate is that no accident dates (0.0 percent) disagreed.

2. Did the data entry date on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 data entry dates in the database (3.01 percent) disagreed with the information on the accident
report form. The point estimate is that no data entry dates disagreed (0.0 percent).

3. Did the pay location on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
138 pay locations in the database (8.36 percent) disagreed with the information on the accident report
form. The point estimate is that 64 pay locations (3.86 percent) disagreed.




                                                  14
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

4. Did the labor distribution code and Functional Operations Number on the accident report
form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
170 labor distribution codes and Functional Operations Numbers in the database (10.28 percent)
disagreed with the information on the accident report form. The point estimate is that 89 labor
distribution code and Functional Operations Numbers (5.4 percent) disagreed.

5. Did the activity code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
88 activity codes in the database (5.35 percent) disagreed with the information on the accident report
form. The point estimate is that 26 activity codes (1.55 percent) disagreed.

6. Did the type-of-accident code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
88 type-of-accident codes in the database (5.35 percent) disagreed with the information on the
accident report form. The point estimate is that 26 type-of-accident codes (1.58 percent) disagreed.

7. Did the accident-result code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 accident-result codes in the database (3.01 percent) disagreed with the information on the
accident report form. The point estimate is that no accident-result codes (0.0 percent) disagreed.

8. Did the work-location code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 work-location codes in the database (3.01 percent) disagreed with the information on the accident
report form. The point estimate is that no work-location codes (0.0 percent) disagreed.

9. Did the nature-of-injury code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
103 nature-of-injury codes in the database (6.23 percent) disagreed with the information on the
accident report form. The point estimate is that 38 nature-of-injury codes (2.28 percent) disagreed.

10. Did the injured body part code on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
103 injured body part code as shown in the database (6.23 percent) disagreed with the information on
the accident report form. The point estimate is that 38 descriptions of the injured body part code
(2.28 percent) disagreed.

11. Was the preventive action code on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 accident report forms (3.01 percent) lacked the preventive action code. The point estimate is that
no accident report forms lacked (0.0 percent) the preventive action code.

12. Was the preventive action on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
51 accident report forms (3.01 percent) lacked the preventive action. The point estimate is that no
accident report forms lacked (0.0 percent) the preventive action.




                                                 15
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                                             APPENDIX D

     STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

         ACCIDENT REPORTING PROCESSES IN OKLAHOMA 

                    PERFORMANCE CLUSTER

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified two-stage random
sample. The sample design allowed statistical projection of the number of discrepancies between the
database and the accident report forms on file. Existence of the appropriate supporting accident and
report forms was also tested using the sample.

Definition of the Audit Universe

The team defined the audit universe as the Oklahoma City Post Offices, the Oklahoma City
Processing and Distribution Center, and the Oklahoma City Customer Service District Office. For
these locations, the audit universe consisted of 2,608 accidents, according to the HRIS database, for
FY 2002 through accounting period 11 of FY 2003. The universe was obtained on-site by requesting
printed HRIS data from the safety manager responsible for the accident and injury prevention
program.

Sample Design and Modifications

The audit universe was stratified into six strata based on location and fiscal year. Because the file
structure at each location was different, we designed separate sampling plans for each stratum. For
strata one through four, we selected independent interval samples of accident report forms as
described below. Random starts for each stratum were selected using the “randbetween” function in
Microsoft Excel23 to assign random numbers to the individuals on the universe listing.

     Stratum                Location                   FY         Population Size          Sample Size
        1                  Post Office                2002                       279                     24
        2                  Post Office                2003                       167                     24
                  Processing and Distribution
        3                  Center                     2002                       145                     24
                  Processing and Distribution
        4                  Center                     2003                         82                    20
       Total                                                                     673                     92

For stratum five, customer service offices for FY 2002, we selected a cluster sample of 26 facilities
from the 183 facilities in the stratum population. This sample yielded a total of 60 accident report
forms for this stratum, out of 1,050 forms total for the stratum.

For stratum six, customer service offices for FY 2003, we selected a two-stage cluster sample, with
25 facilities, from the 173 facilities in the stratum population, selected at the first stage. We selected
a total of 60 accident report forms at the second stage, out of the 885 forms total for the stratum.



23
 Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.

                                                      16
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)



Stratum              Location               FY           Population Size              Sample Size
                 Customer Service
    5              District Office         2002               1,050                        60
                 Customer Service
    6              District Office         2003                885                         60
  Total                                                       1,935                       120

As shown in both tables above, the total population size or the audit universe was 2,608
(673 + 1,935 = 2,608).

The audit team selected individual accident report forms, within stratum six, on-site, using interval
sampling defined as follows:
   • Per folder:
            o If fewer than 10 accident report forms, check all forms.
            o If 10 to 20, check every other form starting with the first form.
            o If 20 to 49, check every third form starting with the second form.
            o If 50 to 99, check every fifth form starting with the fourth form.
            o	 If more than 99, start with the seventh form.
                    For 100 to 199, divide by 10 and use that number as the interval.
                    For 200 to 299, divide by 20 and use that number as the interval.
                    For 300 to 399, divide by 30 and use that number as the interval.

To test the completeness and accuracy of the database, we tested six attributes:

    •     Did the accident type shown on the accident report form agree with the database?
    •     Did the accident number on the accident report form agree with the database?
    •     Did the accident date shown on the accident report form agree with the database?
    •     Did the date the data was entered on the accident report form agree with the database?
    •     Did the listing of the involved person(s) on the accident report form agree with the database?
    •     Did the accident description on the accident report form agree with the database?

For the completeness of the accident report forms, we tested two additional attributes:

    •     Was the accident number on the accident report form?
    •     Was the accident description on the accident report form?

Statistical Projections of the Sample Data

For analysis of the sample results, we considered the interval sampling methodology to be equivalent
to random sampling. As described in Chapter 7 of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990, a systematic sample (also called interval sample or skip-step sample) is
equivalent to a random sample if the order of the items in the population is random relative to (or is
unrelated to) the occurrence of the factor being investigated. We considered that to be the case in
this review.

For projection of the number of errors for each attribute, we observed that the sampled items
contained very low error rates. Because of the extremely low occurrence rates, we were not able to
use the normal approximation to the binomial to calculate occurrence limits. Instead, we analyzed the
upper occurrence limits for each sample using as a basis the cumulative binomial methodology, as
used in past General Accounting Office Financial Audit Manual work to generate the table “Statistical
Sampling Results Evaluation Table for Compliance Tests.” We adapted the upper error limit analysis
concept to the stratified two-stage design, combining an implied within variance for each installation in
the sample (based on the cumulative binomial methodology) with a calculated between installation


                                                   17
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

variance. The between installation variance was zero for strata one through four based on the
sample design. We used a 5 percent risk of overreliance (beta risk).

Results

All projections were made to the audit universe of 2,608 accidents, as described in the definition of
the audit universe.

1. Did the accident type shown on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
72 accident types in the database (2.75 percent) disagreed with the information on the accident report
form. The point estimate is that no accident types (0.0 percent) disagreed.

2. Did the accident number on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more
86 accident numbers in the database (3.29 percent) disagreed with the information on the accident
report form. The point estimate is that 11 accident numbers disagreed (0.42 percent).

3. Did the accident date shown on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
72 accident dates on the accident report forms (2.75 percent) disagreed with the information in the
database. The point estimate is that no accident dates (0.0 percent) disagreed.

4. Did the date the data was entered on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
137 accident data entry dates on the accident report forms (5.24 percent) disagreed with the
information in the database. The point estimate is that 49 accident data entry dates disagreed
(1.88 percent).

5. Did the listing of the involved person(s) on the accident report form agree with the
database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
108 listings of person(s) involved as shown on the database (4.15 percent) disagreed with the
accident report form. The point estimate is that 30 listings of person(s) involved (1.13 percent)
disagreed.

6. Did the accident description on the accident report form agree with the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
72 accident descriptions in the database (2.75 percent) disagreed with the information on the form.
The point estimate is that no accident descriptions in the database (0.0 percent) disagreed.

7. Was the accident number on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
72 accident report forms (2.75 percent) lacked the accident number. The point estimate is that no
accident report forms (0.0 percent) were lacking the accident number.

8. Was the accident description on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
72 accident report forms (2.75 percent) lacked the accident description. The point estimate is that no
accident report forms (0.0 percent) were lacking the accident description.




                                                  18
Efforts to Prevent Accidents, Injuries,               HM-AR-04-007
 and Illnesses in the Arkansas and Oklahoma
 Performance Clusters (Southwest Area)

                APPENDIX E. MANAGEMENT’S COMMENTS 





                                              19
